GR-40-98-007
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grant to the Huntsville, Alabama, Police Department
 
Grant Number 95-DL-BX-0062
GR-40-98-007
March 1998
 

EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Huntsville, Alabama, Police Department (HPD). The HPD received a
$1,430,220 grant (95-DL-BX-0062) to hire 20 additional sworn officers under the Phase I
program. The purpose of the additional officers is to enhance community policing efforts.
In brief, our audit determined the HPD:




- claimed $37,347 in salaries and fringe benefits above the amounts authorized by the
        Office of Justice Programs (OJP).
- incorrectly reported the total program outlays and Federal share of outlays to OJP.
 




#####